U.S. Department of                         The Inspector General   Office of Inspector General
Transportation                                                     Washington, DC 20590
Office of the Secretary
of Transportation




                          U. S. Department of Transportation
                              Office of Inspector General

                             Statement on Announcement
                                          of
                          Cross-Border Truck Safety Pilot Plan


 On February 23, 2007, the Secretary of Transportation announced that a select
 group of Mexican trucking companies will be allowed to make deliveries beyond
 the current 20-25 mile commercial zones currently in place along the Southwest
 border. The following explains the Department of Transportation’s Office of
 Inspector General’s (OIG) legislatively directed reporting requirements regarding
 cross-border trucking issues at the southern border and the status of our current
 work.


 In 2001, Congress directed OIG to review the implementation of specific border
 operations before Mexican motor carriers could operate under authority granted by
 the Federal Motor Carrier Safety Administration (FMCSA) beyond the commercial
 zones at the border and throughout the United States.


 Specifically, the FY 2002 Appropriations Act (the Act) requires two events to
 occur before Mexican carriers may operate beyond the commercial zones at the
 southern border. The first event is an OIG review of border operations to verify
 eight criteria that address hiring and training of FMCSA inspectors, establishment
 of inspection facilities, and development of safety processes and procedures. This
 review was completed and we reported our findings to the Secretary in June 2002.


 The second event is a certification by the Secretary of Transportation, in a manner
 addressing our findings, that the opening of the border does not pose an
 unacceptable safety risk to the American public. The Secretary made this
 certification in November 2002.
                                                                                                  2




As required under the Act, we have continued to annually review border operations
and have issued periodic reports and findings to the Department. 1 Our latest
report, issued in January 2005, found that FMCSA continued to have the staff,
facilities, equipment and procedures in place to substantially meet the eight criteria
of the Act subject to OIG’s review.


Our current review required under the Act is ongoing and we expect to publicly
release the report in the coming months. As part of our ongoing responsibility
under the Act to review the implementation of the cross-border trucking provisions
established by Congress, we will monitor the pilot program announced today.




1
 Since 1998, the OIG has issued seven reports on NAFTA issues. A listing of the prior audits is
attached. These reports are available on our web site: www.oig.dot.gov.
                                                                                 3




                    Prior OIG Audit Coverage on NAFTA


1. OIG Report Number MH-2005-032, Follow-up Audit of the Implementation of the
North American Free trade Agreement’s (NAFTA) Cross Border Trucking
Provisions. Issued January 3, 2005 http://www.oig.dot.gov/item.jsp?id=1485


2. OIG Report Number MH-2003-041, Follow –up Audit on the Implementation of
Commercial Vehicle Safety Requirements at the U.S. – Mexico Border. Issued May
16, 2003 http://www.oig.dot.gov/item.jsp?id=1098


3. OIG Report Number MH-2002-094, Implementation of Commercial Vehicle Safety
Requirements at the U.S.-Mexican Border. Issued June 25, 2002
http://www.oig.dot.gov/item.jsp?id=824


4. OIG Report Number MH-2001-096, Motor Carrier Safety at the U.S.-Mexico
Border. Issued September 21, 2001 http://www.oig.dot.gov/item.jsp?id=588


5. OIG Report Number MH-2001-059, Interim Report on Status of Implementing the
North American Free Trade Agreement’s Cross- Border Trucking Provisions.
Issued May 8, 2001 http://www.oig.dot.gov/item.jsp?id=398


6. OIG Report Number TR- 2000-013, Mexico-Domiciled Motor Carriers. Issued
November 4, 1999. http://www.oig.dot.gov/item.jsp?id=220


7. OIG Report Number TR-1999-034, Motor Carrier Safety Program for Commercial
Trucks at the U.S. Border. Issued December 28, 1998
http://www.oig.dot.gov/item.jsp?id=264
